              The Clarity and Accuracy of Taxpayer Notices
                      Are Actively Being Improved

                                      May 2004

                       Reference Number: 2004-40-099




This report has cleared the Treasury Inspector General For Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                     DEPARTMENT OF THE TREASURY
                                         WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                            May 18, 2004


       MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION


       FROM:                  Gordon C. Milbourn III
                              Acting Deputy Inspector General for Audit

       SUBJECT:               Final Audit Report - The Clarity and Accuracy of Taxpayer
                              Notices Are Actively Being Improved (Audit # 200340056)


       This report presents the results of our review of the clarity and accuracy of taxpayer
       notices. The overall objective of this review was to determine whether the Internal
       Revenue Service (IRS) has an effective process to identify and correct erroneous
       taxpayer notices. This review was included in our Fiscal Year 2003 Annual Audit Plan
       for the Wage and Investment (W&I) Income Programs and was part of our overall
       strategy to review areas critical to the success of the IRS’ Submission Processing
       strategy.
       The W&I Division Commissioner is responsible for the customer communications
       process with individual taxpayers and has appointed a Single Point of Contact to
       oversee the notice process. There are approximately 100 different types of notices
       that can be generated for individual taxpayers, and during Calendar Year 2003, the
       W&I Division generated 40.4 million notices. Unclear notices are a top reason why
       taxpayers contact the IRS.
       In summary, the IRS has established a framework for implementing an effective notice
       process. This framework includes completing assessments of all taxpayer
       communications for clarity, completeness, and accuracy; prioritizing the notices for
       proposed redesign; establishing Project Teams to address specific notice creation or
       modification initiatives; and establishing Improvement Teams to create new or change
       existing computer systems that support notice activities. While it could take many years
       to fully implement this framework, the W&I Division is already actively improving the
       clarity and accuracy of notices to assist taxpayers with meeting their tax obligations.
       We reviewed the W&I Division Notice Review Processing System and determined that it
       properly selects for review those notices most likely to contain errors. We also reviewed
                                            2

538 notices from 11 different notice types and found the notices were, for the most part,
clear and accurate.
However, we identified several errors that could increase taxpayer burden. For
example, copies of notices were not always sent to representatives that taxpayers had
authorized to receive correspondence from the IRS, notices issued to inform a taxpayer
that an overpayment from a secondary Social Security Number account had been
applied to the taxpayer’s balance due did not always reflect the taxpayer’s most current
name or address recorded on the IRS computer systems, and headings on notices
issued to inform a taxpayer of an obligation to recertify for the Earned Income Tax
Credit were not clear. We discussed these errors with W&I Division officials during the
audit. They agreed with our concerns and either put corrective actions in place or
identified the means to make the improvements in the near future. We recommended
the Commissioner, W&I Division, ensure corrective actions taken are effective and
corrective actions planned are both timely implemented and effective.
Our recommendation will provide the following measurable benefits on tax
administration: reducing taxpayer burden by ensuring authorized taxpayer
representatives receive a copy of taxpayer notices, clarifying the section headings on
certain tax notices, and ensuring notices reflect the taxpayer’s most current name and
address. Appendix IV of this report provides a detailed description of these benefits,
which will be included in our Semiannual Report to the Congress.
Management’s Response: IRS management appreciated our recognition of their
efforts to improve communication with taxpayers. Management agreed with our
recommendation and outcome measures as presented. They corrected the
programming problem that caused a high number of incomplete matches to the
Centralized Authorization File in early December 2003, and have plans to revise both
the Computer Paragraph 39 and 79 notices in January 2005. Management’s complete
response to the draft report is included as Appendix VI.
Copies of this draft report are also being sent to the IRS managers affected by the
report recommendation. Please contact me at (202) 622-6510 if you have questions or
Michael R. Phillips, Assistant Inspector General for Audit (Wage and Investment Income
Programs), at (202) 927-0597.
         The Clarity and Accuracy of Taxpayer Notices Are Actively Being Improved




                                                  Table of Contents


Background ............................................................................................... Page 1
A Framework for an Effective Notice Process Has Been Established
but Could Take Many Years to Fully Implement ........................................ Page 3
The Notice Review Processing System Properly Selects Notices
That Are Most Likely to Contain Errors...................................................... Page 5
Improvements to Some Notices Need to Be Made.................................... Page 6
         Recommendation 1: ........................................................................ Page 9

Appendix I – Detailed Objective, Scope, and Methodology ....................... Page 10
Appendix II – Major Contributors to This Report........................................ Page 12
Appendix III – Report Distribution List ....................................................... Page 13
Appendix IV – Outcome Measures ............................................................ Page 14
Appendix V – Explanations of Notices Reviewed During the Audit............ Page 15
Appendix VI – Management’s Response to the Draft Report .................... Page 17
      The Clarity and Accuracy of Taxpayer Notices Are Actively Being Improved

                                In August 2000, the Internal Revenue Service (IRS)
Background
                                commissioned a Notice Modernization Team to design a
                                new end-to-end notice1 process, including the systems used
                                to support the notice activities. In July 2001, the Notice
                                Modernization Team presented its recommendations to the
                                Tax Administration Council, which approved the following:
                                •   The Operating Division Commissioners and the heads of
                                    functional organizations (e.g., the National Taxpayer
                                    Advocate) will own the communications with their
                                    respective customers and are accountable for the quality
                                    and content of those communications.
                                •   The Operating Division Commissioners will use a new
                                    position, the Single Point of Contact (SPOC), to oversee
                                    the notice process in the respective organizations.
                                •   The SPOCs will use the Dynamic Project Team2 process
                                    to create or modify existing notices and use the Notice
                                    Process Improvement Initiative Team process when
                                    focusing on the systems that support notices.
                                •   A new organizational structure, the Notice Support
                                    Group, will be established to support the entire IRS by
                                    providing key services.
                                •   A new Notice Communications and Advisory Group
                                    will be established to provide for cross-Operating
                                    Division decision making and information sharing.
                                The Wage and Investment (W&I) Division generated
                                40.4 million notices for individual taxpayers3 during
                                Calendar Year 2003. There are approximately 100 different
                                types of Individual Master File (IMF)4 notices that are used
                                for different purposes. For example, different notice types
                                are used to inform taxpayers of payments due, interest
                                and/or penalties due, math errors, or adjustments made to

                                1
                                  “Notice” encompasses letters, email notifications, and envelope
                                stuffers.
                                2
                                  A Dynamic Project Team is formed for a specific notice
                                creation/modification initiative and is disbanded when the project is
                                completed.
                                3
                                  Source: IRS Office of Notice Gatekeeper’s Report of Cumulative IMF
                                Notice Volumes for Calendar Year 2003. The 40.4 million excludes
                                Business Master File notices.
                                4
                                  The IRS database that maintains transactions or records of individual
                                tax accounts.
                                                                                               Page 1
The Clarity and Accuracy of Taxpayer Notices Are Actively Being Improved

                          their accounts. As shown in Chart 1, IMF notices can be
                          categorized into four major groups involving either a(n)
                          (1) overpaid or even balance condition, (2) balance due
                          condition, (3) taxpayer inquiry, or (4) other condition.
                                  Chart 1: Volume of IMF Notices Generated in 2003




                                    6,603,052                              Overpaid or Even
                                                                           Balance (39%)
                                3,183,712                 15,549,882       Balance Due (37%)

                                                                           Taxpayer Inquiry (8%)

                                                                           IMF Other (16%)
                                    15,041,365




                          Source: IRS Office of Notice Gatekeeper’s Report of Cumulative IMF
                          Notice Volumes for Calendar Year 2003.

                          Issuance of unclear or erroneous notices increases taxpayer
                          burden and has a negative impact on IRS resources. The
                          IRS’ Fiscal Year (FY) 2003 budget stated that unclear
                          notices are a top reason why taxpayers write to the agency.5
                          The FY 2003 goal for the Notice Error Rate Without
                          Systemic Errors was 4.3 percent.6
                          Several IRS functions conduct quality reviews of notices.
                          One of these is the Notice Review function located at the
                          Submission Processing sites.7 The goal of the Notice
                          Review function is to improve the accuracy and quality of
                          information sent to taxpayers. The Notice Review
                          Processing System (NRPS) is a computer program that
                          selects notices for review in the Notice Review function.
                          This audit was performed at the W&I Division Headquarters
                          offices in Atlanta, Georgia, and New Carrollton, Maryland,
                          and the Submission Processing sites in Cincinnati, Ohio;
                          Austin, Texas; and Kansas City, Missouri, during the period

                          5
                            Source: IRS Budget In Brief, Fiscal Year 2003, Document 9940
                          (Rev 1-2002).
                          6
                            Source: Wage & Investment Strategy & Program Plan FY 2003-2004.
                          7
                            A part of the IRS campuses. See footnote 9 on page 4 for a definition
                          of campuses.
                                                                                          Page 2
       The Clarity and Accuracy of Taxpayer Notices Are Actively Being Improved

                                 July 2003 through February 2004. The audit was conducted
                                 in accordance with Government Auditing Standards.
                                 Detailed information on our audit objective, scope, and
                                 methodology is presented in Appendix I. Major
                                 contributors to the report are listed in Appendix II.
                                 Overall, the IRS has established a framework for an
A Framework for an Effective
                                 effective notice process that could take many years to fully
Notice Process Has Been
                                 implement. Meanwhile, the W&I Division is already
Established but Could Take
                                 actively improving the clarity and accuracy of notices to
Many Years to Fully Implement
                                 assist taxpayers with meeting their tax obligations.
                                 In July 2001, the Tax Administration Council approved the
                                 recommendations of the Notice Modernization Team that
                                 established the framework for an end-to-end notice process.
                                 Each Operating Division Commissioner became the owner
                                 of his or her customer communications, and a SPOC
                                 position was established within each Operating Division to
                                 oversee the notice process.
                                 The W&I Division Notice Strategy Group was formed in
                                 August 2001. This Group, which is composed of
                                 representatives from all of the major W&I Division
                                 functions, developed the W&I Division Notice Strategy that
                                 identifies strategies for addressing notice issues. In our
                                 opinion, several of the strategies could alleviate future
                                 erroneous notices.
                                 The SPOC organization is responsible for working with the
                                 W&I Division functions to incorporate the notice strategies
                                 into their business strategies and assist them in reviewing
                                 their customer communications. The SPOC acts as an
                                 overseer, facilitator, coordinator, and troubleshooter
                                 regarding all notice activities.
                                 All W&I Division functions will assess their notices by
                                 completing a Document Assessment Tool (DAT). The
                                 DAT contains 36 criteria for assessing the quality and
                                 completeness of notices. Completed DATs will be
                                 forwarded to the W&I Division Notice Strategy Group,
                                 which will evaluate the results and prioritize the notices for
                                 redesign.
                                 The W&I Division and SPOC will use the Dynamic Project
                                 Team process to create or modify existing notices and the
                                 Notice Process Improvement Initiative Team process to
                                 update computer systems that support notices.
                                                                                         Page 3
The Clarity and Accuracy of Taxpayer Notices Are Actively Being Improved

                          We reviewed the DAT and concluded that it sufficiently
                          covers notice clarity and completeness issues. The 36 DAT
                          criteria are adequate to assess a notice’s message and task,
                          logical structure, and presentation. We also reviewed the
                          Proposed Notice Redesign Prioritization Matrix, dated
                          April 9, 2003, that was prepared by the W&I Division
                          Notice Strategy Group. The matrix listed 44 notices that
                          had been scored using 12 criteria. The total scores were
                          used to prioritize the notices for proposed redesign.
                          We observed that the matrix was incomplete. For example,
                          the criteria for “Program Analysis Section quality reviews”8
                          and “erroneous notices sent” had not been defined. The
                          SPOC informed us the employee responsible for defining
                          the “erroneous notices sent” criteria was assigned to another
                          task force and the W&I Division Notice Strategy Group did
                          not use these criteria to prioritize the notices. Thus, while
                          the IRS has established a framework for an effective notice
                          process, it could take many years to complete the
                          assessment and prioritization of all W&I Division notices
                          for proposed redesign and then implement the revisions.
                          As noted above, there are several functional areas that
                          review notices. To determine whether all IMF notices were
                          subjected to quality review, we analyzed 127 different types
                          of IMF notices with a total volume of 35.6 million during
                          the period January through mid-October 2003. We found
                          that 103 of these 127 notices, which accounted for
                          34.5 (96.9 percent) of the 35.6 million, were included in
                          some type of review at the various IRS campuses.9 Of these
                          103 notices, 47 were subject to review by the NRPS.




                          8
                            The Program Analysis Section (PAS) reviews are one component of
                          the IRS’ quality review process for assessing national quality balanced
                          measures. Management uses the data to provide a basis for measuring
                          and improving program effectiveness. The PAS includes reviews of
                          Computer Paragraph (CP) notices to evaluate and improve the quality of
                          computer-generated notices to taxpayers.
                          9
                            The data processing arm of the IRS. Campuses process paper and
                          electronic submissions, correct errors, and forward data to the
                          computing centers for analysis and posting to taxpayer accounts.
                                                                                         Page 4
         The Clarity and Accuracy of Taxpayer Notices Are Actively Being Improved

                                   The NRPS selects notices for review based on prioritized
The Notice Review Processing
                                   Categories and prioritized Selection Keys within each
System Properly Selects Notices
                                   Category. There are 11 different Categories and several
That Are Most Likely to Contain
                                   hundred Selection Keys. The default selection limit is
Errors
                                   30,000 notices per week for each Submission Processing
                                   site, but the limit can be increased up to 50,000. Each week,
                                   the NRPS systemically calculates the error rate and
                                   selection rate for notices. The Submission Processing sites
                                   can use a Local Control File (used to adjust the NRPS
                                   notice selection intervals) to adjust (increase or decrease)10
                                   the number of notices selected. The Local Control File will
                                   override the systemic calculation and must be cleared to
                                   resume the systemic calculation.
                                   We reviewed the cumulative NRPS report data for Calendar
                                   Year 2003 through mid-October11 to determine if the
                                   volumes of notices reviewed were statistically
                                   representative of the populations. We analyzed
                                   318 combinations of notices12 and found that, for 278 of
                                   these combinations, the volumes reviewed were
                                   representative of their respective populations.13 Although
                                   the volumes of notices reviewed for the remaining
                                   40 combinations were determined to be less than the
                                   minimum sample sizes required to be statistically
                                   representative, we considered the potential adverse effect to
                                   be immaterial when the total volume (123,826) for these
                                   40 combinations was compared to the overall volume
                                   (27.3 million) for the 318 notice combinations subject to
                                   potential review.
                                   We found no indication that notices were bypassed for
                                   selection under the NRPS. In addition, the Local Control


                                   10
                                      Only the Math Error notice selection volumes can be decreased.
                                   11
                                      All of the notices selected by the NRPS may not be reviewed due to
                                   resource constraints. Through mid-October, 11 percent of the notices
                                   selected by the NRPS had not been reviewed.
                                   12
                                      Examples of combinations are CP 12 notice for Andover Submission
                                   Processing Site, CP 12 notice for Austin Submission Processing Site,
                                   CP 14 notice for Andover Submission Processing Site, etc. See
                                   Appendix V for explanations of these notices.
                                   13
                                      Although the Notice Review Internal Revenue Manual (IRM) does
                                   not require the use of statistical sampling, the PAS Quality Review IRM
                                   contains a statistical sampling guideline of a 90 percent confidence level
                                   and +/- 5 percent precision for monthly and quarterly samples. We used
                                   this guideline to analyze the NRPS selections.
                                                                                                     Page 5
         The Clarity and Accuracy of Taxpayer Notices Are Actively Being Improved

                                   File appeared to be functioning as designed. There were
                                   only five instances in which the NRPS notice selections
                                   reached or slightly exceeded the system volume capacity.14
                                   The number of instances is insignificant, considering NRPS
                                   selections are performed by the 10 Submission Processing
                                   sites each week.
                                   We selected a judgmental sample of 538 notices from
Improvements to Some Notices
                                   11 different notice types15 with large volumes and reviewed
Need to Be Made
                                   them for clarity and accuracy. See Appendix V for
                                   explanations of the notice types. We assessed clarity from a
                                   taxpayer’s perspective; for example, whether the notice
                                   information was complete and understandable. To assess
                                   accuracy, we compared the data on the notice (e.g., taxpayer
                                   name and address, adjustments, offsets) to account
                                   information on the Integrated Data Retrieval System
                                   (IDRS).16 The notices were, for the most part, clear and
                                   accurate. However, we identified the following errors that,
                                   if not corrected, could increase taxpayer burden and have a
                                   negative impact on IRS downstream operations.
                                   In January 2004, we presented our results to W&I Division
                                   management. Management agreed with our findings and
                                   has either put corrective actions in place or identified the
                                   means to make necessary improvements in the near future as
                                   noted below.
                                   A copy of the notice (dual notice) was not always sent to
                                   the taxpayer’s representative
                                   Of the 538 notices we reviewed, 59 (11 percent) involved
                                   taxpayers that had a representative on file who was
                                   authorized to receive notices. Federal Government
                                   regulations require that any notice or other written
                                   communication (or copy) required or permitted to be given
                                   to a taxpayer in any matter before the IRS must also be

                                   14
                                      The NRPS default selection limit is 30,000 notices. Each Submission
                                   Processing site can increase this limit to any number up to 50,000.
                                   When the number of notices selected comes within 1,000 of the
                                   30,000 default selection limit (i.e., 29,001), the NRPS begins to bypass
                                   Categories and Selection Keys in a prescribed order.
                                   15
                                      We reviewed 50 of each of the following CP notice types: 12, 14, 16,
                                   21B, 22A, 31, 42, 49, 53, and 79; and 38 CP 39 notices, for a total of
                                   538 notices.
                                   16
                                      IRS computer system capable of retrieving or updating stored
                                   information; it works in conjunction with a taxpayer’s account records.
                                                                                                   Page 6
The Clarity and Accuracy of Taxpayer Notices Are Actively Being Improved

                          given to the taxpayer’s authorized representative. Failure to
                          give notice to an authorized representative will not affect the
                          validity of any notice or other written communication
                          delivered to the taxpayer.17 Notice Review function
                          personnel at the Austin Submission Processing Site
                          informed us that the notice processing system is
                          programmed to automatically pull the representative’s name
                          and address from the Centralized Authorization File
                          (CAF).18 Additionally, the Internal Revenue Manual
                          contains procedures for working CAF mismatch notices.19
                          We found that 5 (8.5 percent) of the 59 taxpayer
                          representatives did not receive a copy of the taxpayer notice
                          due to a programming error. This creates unnecessary
                          burden on taxpayers, since they must contact their
                          representatives and advise them of the notices. Our sample
                          of 538 notices was selected from notices processed in early
                          November 2003.
                          The IRS corrected this programming problem in early
                          December 2003, and the CAF mismatches declined
                          significantly. For comparison, there were 6,530 CAF
                          mismatches the week before the programming correction
                          was made and only 491 in the subsequent week.20 To ensure
                          the number of mismatches is kept to a minimum, the
                          computer will search CAF files at three campuses21 to find a
                          CAF match. If a match is not found, the computer will
                          search CAF files at the remaining campuses.22
                          Some Computer Paragraph (CP) 39 notices23 did not
                          include the taxpayer’s most current name and address
                          We reviewed 38 CP 39 notices and identified
                          11 (28.9 percent) that did not reflect the taxpayer’s most


                          17
                             26 C.F.R. § 601.506 (2001).
                          18
                             The IRS database that maintains third party authorization information.
                          19
                             CAF mismatch notices are copies of the taxpayer’s notice that are
                          intended for a tax preparer or other representative but have no name and
                          address.
                          20
                             The IRS processes transactions in 1-week periods known as “cycles.”
                          For example, there are 52 cycles in a calendar year.
                          21
                             CAF processing is centralized in three campuses: Ogden, Memphis,
                          and Philadelphia.
                          22
                             Andover, Atlanta, Austin, Brookhaven, Cincinnati, Fresno, and
                          Kansas City.
                          23
                             See explanation for CP 39 notice in Appendix V.
                                                                                           Page 7
The Clarity and Accuracy of Taxpayer Notices Are Actively Being Improved

                          current name or address information, as recorded on the
                          IDRS. The result is either delayed or lost notices, which can
                          affect taxpayers’ ability to satisfy their tax obligations. In
                          addition, the notice identifies the tax period that the
                          overpayment was applied to but does not identify the source
                          (tax period) of the overpayment.
                          According to W&I Division management, the CP 39 notice
                          is generated from the spouse’s account, which could explain
                          the address not being the most current. The notice has one
                          of the highest priorities for revision because it does not fully
                          meet the needs of its customers. Management further
                          advised that, after they receive the model for the Dynamic
                          Project Team (at the time of our review, the vendor delivery
                          date was scheduled for April 2004), they plan to start
                          organizing teams to revise the notice. Management will
                          provide our audit findings to the teams for corrective action.
                          Headings on CP 79 notices, 24 issued to inform a taxpayer
                          of an obligation to recertify for the Earned Income Tax
                          Credit (EITC), were not clear
                          All 50 CP 79 notices we reviewed contained the same
                          information except for the taxpayer’s name, address,
                          taxpayer identification number, and tax period printed at the
                          top of the notice. From a taxpayer’s perspective, it is
                          unclear whether the section headings, “For Tax Period 2001
                          and Prior” and “For Tax Period 2002 and Subsequent,” are
                          referring to the tax period printed at the top of the notice. In
                          addition, the information in the third bullet appears to be
                          missing the word “be” between “may” and “delayed.”
                          Unclear notices result in increased taxpayer contacts with
                          the IRS.
                          W&I Division management issued a transmittal in
                          January 2004, to insert the word “be” into the third bullet of
                          the notice. In addition, management is currently working on
                          revising all EITC communications and has forwarded our
                          findings to the appropriate personnel to consider during the
                          revision process. Since W&I Division management has
                          taken corrective actions, we did not determine the cause for
                          the unclear notice.



                          24
                               See explanation for CP 79 notice in Appendix V.
                                                                                   Page 8
The Clarity and Accuracy of Taxpayer Notices Are Actively Being Improved

                          Recommendation

                          To improve the quality of the notices and reduce taxpayer
                          burden, the Commissioner, W&I Division, should:
                          1. Ensure corrective actions taken are effective and
                             corrective actions planned are both timely implemented
                             and effective.
                          Management’s Response: IRS management agreed with our
                          recommendation. As noted, they corrected the
                          programming problem that caused a high number of
                          incomplete matches to the CAF in early December 2003. In
                          addition, management has plans to revise both the CP 39
                          and CP 79 notices in January 2005.




                                                                               Page 9
        The Clarity and Accuracy of Taxpayer Notices Are Actively Being Improved

                                                                                                      Appendix I


                           Detailed Objective, Scope, and Methodology

The overall objective of this audit was to determine whether the Internal Revenue Service (IRS)
has an effective process to identify and correct erroneous taxpayer notices. This review was
included in our Fiscal Year 2003 Annual Audit Plan for the Wage and Investment (W&I) Income
Programs and was part of our overall strategy to review areas critical to the success of the IRS’
Submission Processing strategy. To accomplish our objective, we:
I.       Determined whether procedures have been established to identify for future
         improvements those notices most likely to contain errors.
         A. Interviewed the W&I Division Single Point of Contact (SPOC) and reviewed notice
            documentation1 to (1) determine if the SPOC is empowered to effect notice revisions
            and (2) evaluate guidance provided to functions that review notices.
         B. Interviewed national and local analysts responsible for the Notice Review Processing
            System (NRPS)2 and the Computer Assisted Review of Error Resolution System3 and
            reviewed data from these two systems to determine whether:
             1. The systems’ data provided details of the errors and their causes for use in
                performing trend analyses.
             2. The results of reviews were forwarded to the SPOC for assistance in identifying
                causes of erroneous notices.
         C. Identified a total population of 127 different Individual Master File (IMF)4 notice
            types with a cumulative volume of 36.2 million for January through late October
            2003. We sorted the 127 notice types based on volume (highest to lowest) and
            selected a combination of 11 different notice types5 generally with high volumes that
            are and are not subject to quality review by the NRPS. From these 11 different notice
            types, we reviewed a judgmental sample6 of 538 notices to evaluate them for clarity
            and accuracy.


1
  We obtained the notice process documentation from the W&I Division SPOC.
2
  A computer program that selects notices for review in the Notice Review function.
3
  The “on-line” quality review of taxpayer notice codes initiated by the Error Resolution System. It is a
management tool used to identify incorrect or erroneous taxpayer notice codes, prior to the normal Notice Review
process.
4
  The IRS database that maintains transactions or records of individual tax accounts.
5
  See Appendix V for explanations of the 11 different notice types.
6
  We could not perform a statistical sample because we did not have access to the total population of printed notices
for Calendar Year 2003. Each week, notices are printed at two IRS consolidated print sites and mailed to taxpayers.
The IRS does not retain copies of the notices. Therefore, we made a special request for copies of the first
200 notices from each of 11 different IMF notice types generated in early November. We selected our judgmental
sample of 538 notices from this population.
                                                                                                            Page 10
        The Clarity and Accuracy of Taxpayer Notices Are Actively Being Improved

II.     Determined whether procedures for the review of notices currently prepared for mailing
        to taxpayers provide meaningful results for preventing future erroneous notices.
        A. Analyzed cumulative NRPS report data for January through mid-October 2003, to
           determine if the volumes of notices reviewed were statistically representative of their
           respective populations. We computed the statistically valid sample sizes using a
           90 percent confidence level, +/- 5 percent precision, and 4.3 percent expected error
           rate.7
        B. Analyzed the total population of 127 different IMF notice types with a cumulative
           volume of 35.6 million for January through mid-October 2003, to determine if all
           IMF notices are subject to quality review by the NRPS or other functional area. This
           was the same population of 127 notice types identified in Step I.C. but for a different
           period.
        C. Interviewed the NRPS national program analyst and a local database administrator to
           determine if access to NRPS data is appropriately controlled and if the Local Control
           File (used to adjust the NRPS selection intervals) is functioning as intended.




7
  Although the Notice Review Internal Revenue Manual (IRM) does not require the use of statistical sampling, the
IRM covering Program Analysis Section quality reviews contains a statistical sampling guideline of a 90 percent
confidence level and +/- 5 percent precision for monthly and quarterly samples. We used this guideline to analyze
the NRPS selections.




                                                                                                          Page 11
       The Clarity and Accuracy of Taxpayer Notices Are Actively Being Improved

                                                                                Appendix II


                           Major Contributors to This Report

Michael R. Phillips, Assistant Inspector General for Audit (Wage and Investment Income
Programs)
Scott A. Macfarlane, Director
Gary L. Young, Audit Manager
Sharon A. Buford, Senior Auditor
Sharla J. Robinson, Senior Auditor
Lawrence N. White, Senior Auditor
Bonnie G. Shanks, Auditor




                                                                                         Page 12
      The Clarity and Accuracy of Taxpayer Notices Are Actively Being Improved

                                                                           Appendix III


                              Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Wage and Investment Division SE:W
Director, Customer Account Services SE:W:CAS
Director, Customer Assistance, Relationships, and Education SE:W:CAR
Director, Strategy and Finance SE:W:S
Director, Media and Publications SE:W:CAR:MP
Director, Submission Processing SE:W:CAS:SP
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaison: GAO/TIGTA Liaison, Wage and Investment Division SE:W:S:PA




                                                                                 Page 13
        The Clarity and Accuracy of Taxpayer Notices Are Actively Being Improved

                                                                                                 Appendix IV


                                           Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective action will have on tax administration. These benefits will be incorporated into our
Semiannual Report to the Congress.
Type and Value of Outcome Measure:
•   Taxpayer Burden – Actual; 16 erroneous taxpayer notices (see page 6).
Methodology Used to Measure the Reported Benefit:
We judgmentally reviewed a total of 538 notices and determined that 59 of the taxpayers had a
representative on file who was authorized to receive notices. However, required copies of the
taxpayer notices were not sent to 5 (8.5 percent) of the 59 representatives.
We also reviewed a judgmental sample of 38 notices issued to inform a taxpayer that an
overpayment from a secondary Social Security Number account had been applied to the
taxpayer’s balance due. We determined 11 (28.9 percent) did not reflect the taxpayer’s most
current name or address information, as recorded on the Integrated Data Retrieval System.1
Type and Value of Outcome Measure:
•   Taxpayer Burden – Actual; 371,205 notices (see page 6).
Methodology Used to Measure the Reported Benefit:
We reviewed a judgmental sample of 50 notices issued to inform a taxpayer of an obligation to
recertify for the earned income tax credit and identified unclear and missing information that
could be confusing to taxpayers. Since all of the notices contain the same information except for
the taxpayer entity information, all notices were affected. The Internal Revenue Service issued
371,205 of these notices to taxpayers during 2003.




1
 The Internal Revenue Service computer system capable of retrieving or updating stored information; it works in
conjunction with a taxpayer’s account records.
                                                                                                         Page 14
        The Clarity and Accuracy of Taxpayer Notices Are Actively Being Improved

                                                                                                     Appendix V


                      Explanations of Notices Reviewed During the Audit

Notices selected for review under the Notice Review Processing System (NRPS):
    •    Computer Paragraph (CP) 12 (Overpaid) – Issued as a first notice to inform a taxpayer
         there was an error in computation on his or her individual income tax return resulting in
         an overpayment of $1.00 or more.
    •    CP 14 (Balance Due) – Issued to inform a taxpayer of a balance due when there is no
         math error.
    •    CP 16 (Overpaid) – Issued to inform a taxpayer of an error on the return and that part of
         an overpayment was applied to another tax liability.
    •    CP 21B (Overpaid) – Issued to inform a taxpayer of an Examination function or data
         processing adjustment resulting in an overpayment.
    •    CP 22A (Balance Due) – Issued to inform a taxpayer of an Examination function or data
         processing adjustment resulting in a balance due.
Notice that may be reviewed under the NRPS:1
    •    CP 49 (Overpaid) – Issued to notify a taxpayer that an Individual Master File (IMF)2
         overpayment has been applied to an unpaid IMF liability or liabilities.
Notices not reviewed under the NRPS:3
    •    CP 31 (Taxpayer Inquiry) – Issued to inform a taxpayer that his or her refund check was
         returned as undelivered and request that the taxpayer provide the Internal Revenue
         Service with a correct address.
    •    CP 39 (Balance Due) – Issued to inform a taxpayer that an overpayment from a
         secondary Social Security Number (SSN) account has been applied to his or her balance
         due.
    •    CP 42 (Overpaid) – Issued to inform a taxpayer that an overpayment from his or her
         account has been used to offset a balance due in a secondary SSN account.
    •    CP 53 (Taxpayer Inquiry) – Issued to notify a taxpayer that an electronic funds transfer
         was not honored.


1
  These “associated notices” are not subject to selection, but are included in the review package if the NRPS selects
another notice for the same taxpayer/spouse, and may appear on the Manual Intervention Required Pull List.
2
  The Internal Revenue Service database that maintains transactions or records of individual tax accounts.
3
  The NRPS will neither select these nor associate them with a selected notice. However, they may appear on the
NRPS Manual Intervention Required Pull List.
                                                                                                             Page 15
    The Clarity and Accuracy of Taxpayer Notices Are Actively Being Improved

•   CP 79 (Taxpayer Inquiry) – Issued to inform a taxpayer of his or her obligation to
    recertify for the Earned Income Tax Credit (EITC) with an Information To Claim Earned
    Income Credit After Disallowance (Form 8862) on the next return on which he or she
    claims the EITC.




                                                                                  Page 16
The Clarity and Accuracy of Taxpayer Notices Are Actively Being Improved

                                                                  Appendix VI


             Management’s Response to the Draft Report




                                                                           Page 17
The Clarity and Accuracy of Taxpayer Notices Are Actively Being Improved




                                                                           Page 18
The Clarity and Accuracy of Taxpayer Notices Are Actively Being Improved




                                                                           Page 19
